'm-SP '7 &
\ ■

No:

QJ

(s

7 - r )!

)HSG!NAL
Supreme Court, U.S.
FILED

OFFICE .OF THE CLERK

In the

Supreme Court of the United States

Torres. Marco M. - Petitioner
(Your name)

Vs.
Donald Trump and all the House of Senate - Respondent (s)

On petition for a writ of Certiorari to
The United States Supreme Court
(Name of the court that last ruled on merits of your case)

Petition for writ of certiorari

H:
,

Torres. Marco M.
(Your Name)

$

7810 N. Woodlvnne Ave.
(Address)
Tampa. Florida 33614
(City, State, Zip Code)
(813)704-1090------(Phone Nur ibefP^Ef^ED

AUG - 4 2020

RESEIV
020

m

OFFICE # thsclerk
SUPREA £ COUNT. U.s^

supreme"CPU RT^K

i

Question presented

1. Whether, the President (Donald Trump), with the consent of the Senate has
conspired with the 9 Supreme Judexes to not execute the laws of the United
States of America faithfully and breach their oaths in office.
1. Whether, the President (Donald Trump)and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior,
which has been vested in this one Supreme Court and such inferior court, as
congress may time to time ordain and establish, to hold their office, and while
deny petitioner Torres, Marco M. great writ of Cert, and en banc reh’g, to case
number 15-7897, during their good behavior, pursuant of Article 2, section 1-3
of the United States constitution.
2. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes,
with the consent of the Senate, hold their office, with their bad behavior, has
cause the powers of the judicial vesting treason against petitioner Torres, Marco
M. that is consisting only in leying war against the petitioner Torres, Marco M.
and in adhering to petitioner Torres, Marco M. enemies, giving them aid comfort,
and allowing corruption of blood, or fortiture, excepted not during the life of the
petitioner Torres, Marco M. attained.
3. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes,
with the consent of the Senate, hold their office, with their bad behavior, or has
cause discrimination on petitioner Torres, Marco M. federally protected rights,
and treatise of ordinance 56 session 1, chapter 191 of the year 1900, section
7, of porto Rico, been inforced, shall continue in full force, and that all inhabitant
continuing to reside therein who were Spanish subjects ts on the 11th day of
April, 1899, then resided in Porto Rico, and their children born subsequent
thereto, shall be deem and held to be citizenss of Porto Rico, and such entitled to
the protection of the United States of America, except such as shall have elected
to preserve their allegiance to the crown of Spain on or before the 11th day of
April, 1900, in accordance with the provision of the treaty of peace between the
United States of America as may reside in Porto Rico, shall constitute a body
politic under the name of the People of Porto Rico, with governmental powers as
inhereafter conferred, and with power to sue and be sued as such.

4. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with the
consent of the Senate, in doing so, hold their office, with their bad behavior, has
discriminated the laws and ordinance or Porto Rico now in force shall continue in full
force effect, except, as altered, amended, or modified hereinafter, or as altered, or
modified by military orders and decree in force, when this acts, shall take effect, and so
far as the same are not inconsistent or in conflict with the statutory laws of the United
States of America, locally inapplicable, or the provision hereof to provide new guards for
the Petitioner Torres, Marco M. future and secure in, in which has had been the patient
sufferance of Spain and the petitioner Torres, Marco M. and for the people of Spain.
5. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with the
consent of the Senate, in doing so, hold their office, with their bad behavior, has
discriminated against the Petitioner Torres, Marco M. that has been now which
constrained to Spain and by altering the laws of America and thus breach the treaty act
between to country, Spain and the United States of America system, which has
repeatedly through history repeated and usurpation of all having indierect objects to the
establishment let the facts be submitted to a candid world.
6. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with the
consent of the Senate, in doing so, hold their office, with their bad behavior, has
assented the laws of the United States of America, and Spain to the Petitioner Torres,
Marco M. wholesome and necessary for respondents and only the respondents public
good and not for the petitioner Torres, Marco M.
7. Whether, the President (Donald Trump), and the elected 9 Supreme Judexes, with
the consent of Senate, in doing so, hold their office, with their bad behavior, has
discriminated by referring these charges to these facts that defendants had obliged from
petitioner Torres, Marco M. establishment to submit petitioner Torres, marco M.
fundamental rights by not securing them protectively in order to practice due process,
with the consent of the Senate to conspired to with the 9 elected United States Supreme
Court Judexes fundamental principles of just government, was never implies declaratory
by and through the powers.
8. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with the
consent of the Senate, in doing so, hold their office, with their bad behavior, has
discriminated against petitioner Torres, Marco M. by denying petitioner Torres, marco
M. great Writ of Cert, and en banc reh’g to case number 15-7897, fhat was
denied in the United states Supreme Court Judexes, that was not granting on the -

£

On the issue of separation of powers.
9. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with the
consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminated against petitioner Torres, Marco M. allowing the 9 Supreme Judexes of
the United States Supreme Court in Washington, D.C. to deny petition writ of cert. To
case number 15-7897, and let the state of Florida enforce unconstitutional laws of as
such 316.318 which allows the State of Florida to enforce and suspend petitioner
Torres, Marco M. privileges and declare war by suspending the 14th amendment,
section 1, that states;
"No state, shall make, or enforce anv law which shall abridge the privileges, or
immunities of citizens of the United States of America, nor shall any state deprive anv
person of life, liberty, or property, without due process of law: nor deny anv person
within its jurisdiction the equal protection of the laws."
10. Whether, the president (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against petitioner Torres, Marco M. to refuse, and forbid the government
of Spain, the treaty of amity between (them both) Spain and America, and to pass laws
of impressing unless suspended in America operation until defendants assented that
should obtained, and when so suspended in America, that the defendants do not utterly
neglected to attend the people of Spain as well the petitioner Torres, Marco M.
11. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against Torres, Marco M. has refused to acknowledge others laws for the
accommodation of the petitioner Torres, Marco M. that has been here since his past
decedent and station here from Spain and yes to the formable rights to the tyrant only
the king does no wrong.
12. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against petitioner Torres, Marco M. has participated and conspired to and
with the legislative bodies at places unusual uncomfortable and distant from the
depository of Spain and the petitioner Torres, Marco M. into compliance with
defendants measure of its forum to depend on the defendants will alone and for the
tenure of officers of the United States of America and the amount to the people of the
United States of America and not to the people of Spain or the petitioner -

12. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against petitioner Torres, Marco M. has participated with legislature and
others to conspire to the subjects to petitioner Torres, Marco M. and the people of
Spain to its jurisdiction of its foreign and to (our) the people of Spain and of the
petitioner Torres, Marco M. parliament, to not acknowledge the laws of Spain and of
the petitioner Torres, Marco M. belief in their or his own nationalaility to defendants
assenting their (American) acts of pretending legislature, under their (Americans) due
process and not of the treaty that was made between the two country.
13. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against petitioner Torres, Marco M. and to conspired to not protect
petitioner Torres, Marco M. and the Spanish people rights, or honor the treaty of amity
between them, Spain, and the United States of America that was made 1819, and the
act of congress, 56 session 1, chapter 191, of the year 1900, section 7, by having a
mock trial from punishment for any murder that petitioner Torres, Marco M. was
convicted on in 1992, October 28, under their (American ) die process.
13. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against petitioner Torrers, Marco M. has conspired to dissolved
representative houses repeatedly for opposing with many firmness to whom treason on
the rights of petitioner Torres, Marco M. and the people of Spain, to not be elected to
certain officer position to this old government under leadership by ordering the
legislature of all appointed states, especially Florida to be incapable to annihilation to
have return the laws of Spain of the treaty of amity.
14. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against petitioner Torres, Marco M. has refused to obstruct the
administration of justice by refusing assenting to the laws for establishing judicial
powers, under their (American ) due process and not for the treaty of amity.
15. Whether, the president (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against Torres, Marco M. has cut off the petitioner Torres, Marco M. and
the people of Spain, that are here already in the United States of America and all parts
of the world, under their (American) due process and not for the treaty of amity.

V-..

16. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against petition Torres, Marco M. has deprived the petitioner Torres,
Marco M. and the people of Spain, and especially the petitioner Torres, Marco M., with
the proper jurisdiction for the (was) pending offenses to case number 15-ca-006027 of
the 13th judicial circuit for the Hillsborough County of Florida, under their (American )
due process and not for the treaty of amity.
17. Whether, the President (Donald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold their office, with their bad behavior, to
discriminate against petitioner Torres, Marco M. has abolished the free system of
Spain and the petitioner Torres, Marco M. from (our) belief of neighboring province to
the established therein an boundaries so as to render it at once and fit the instrument
for introducing the same absolute rule into' the new colonies of Spain, that was signed at
1819.
18. Whether, the President (Domald Trump) and the elected 9 Supreme Judexes, with
the consent of the Senate, in doing so, hold office, with their bad behavior, to
discriminate against petitioner Torres, Marco M. has taken the petitioner Torres,
Marco M. and the people of Spain and that already here, characters and the most
valuable laws of the treaty of amity by altering the fundamental of forms of the
petitioner Torres, Marco M. and the people of Spain belief and accommodation to his
or ours nationality.

<>!!k

List of parties
( v{aII parties appear in the caption of the case on the cover page, and if this
Court is not satisfied on the all above parties name, then petitioner will
Check below parenthesis, and write every respondent's name to satisfy
This court's proceedings.
Please see below: to satisfy this court authority.
(S) All parties do not appear in the caption of the case on the cover page. A list
of all Parties to the proceeding in the court whose judgment is the subject
Of this petition is as follows:
1. Donald Trump
2. Young, Todd
3. Wyden, Ron
4. Wicker, Roger
5. Whitehouse, Sheldon
6. Warren, Elizabeth
7. Warner, Mark
8. Van, Hollen
9. Udell, Tom
10.Toomey, Patrick
H.Tillis, Thom
12.Thune, John
13. Tester, Jon
14. Sullivan, Dan
15. Stabenow, Debbie
16. Smith, Tina
17.Sinema, Kyrsten
18. Selby, Richard C.
19. Shaheen, Jeanne
20. Scott, Tim
21. Scott, Rick
22. Schumer, Charles
23. Schatz, Brian
24. Sasse, Ben
25. Sanders, Bernard

26. Rubio, Marco
27. Rounds, Mike
28. Rosen, Jacky
29. Romney, Mitt
30. Roberts, Pat
31. Risch, James
32. Reed, Jack
33. Partman, Rob
34. Peter, Gary C.
35. Perdue, David
36. Paul, Rand
37. Murray, Patty
38. Murphy, Christopher
39. Murkowski, Lisa
40. Moran, Jerry
41. Merkley, Jeff
42. Menedez, Robert
43. McSally, Martha
44. McConnell, Mitch
45. Markey, Edward J.
46. Manchin, joe
47. Loeffler, Kelly
48. Lee, Mike
49. Leahy, Partick
50. Lankford, James
51. Klobuchar, Amy
52. King, Anhus
53. Kennedy, John
54. Kaine, Tim
55. Jones, Doug
56. Johnson, Ron
57. Inhofe, James
58. Hyde, Smith, Cindy
59. Hoeven, John
60. Hirano, Marzie K.
61. Heinrich, Martin
62. Hawley, Josh
63. Hassan, Margaret W.
64. Harris, Kamala

ip:

65. Grassley, Chuck
66. Graham, Lindsey
67. Gillibrand, Kirsten
68. Garden, Corey
69. Fischer, Deb
70. Feinstein, Dianne
71. Ernst, Joni
72. Enzi, Michael
73. Durbin, Richard
74. Duckworth, Tammy
75. Daine, Steve
76. Cruz, Ted
77. Crapo, Mike
78. Cramer, Kevin
79. Cotten, Tom
80. Cortez, Masto
81. Ornyn, John
82. Coons, Christopher A.
83. Collins, Susan M.
84. Cassidy, Bill
85. Casey, Robert P. Jr.
86. Carper, Thomas R.
87. Cardin, Benjamin L.
88. Capito, Shelly Moore
89. Cantwell, Maria
90. Burr, Richard
91. Brown, Sherrod
92. Braun, Mike
93. Boozman, John
94. Booker, Cory A.
95. Blunt, Roy
96. Blumenthal, Richar
97. Blackburn, Marsha
98. Barrasso, John
99. Baldwin, Tammy
100. Alexander, Lamar

Table of contents

Opinions below
Jurisdiction
Constitutional and Statutory provision involved
Statement of the case
Reason for granting the writ
Conclusion

Index to appendices
Appendix a
Appendix b
Appendix c
Appendix e
Appendix f
Appendix g
Appendix h

'

Table of authority cited

Florida Statutes
316.318

U.S. Constitution
14th amendment, sec. 1
Article 2, sec 1 -3.........

Treaty act
Treaty of Amity of 1819

Act of congress
56 session 1, chapter 191, of the year 1900, section 7

pages

In the Supreme Court of the United States Petitioner for writ of
Certiorari
Petitioner respectfully prays that a writ of Certiorari issue to review the judgment
below.
Opinions Below
(J) For cases from federal courts:
The opinion of the United States Court of Appeals:
is still not yet final, pursuant of 28 U.S.C. 1254 (1), and (2), which states:
“Cases in the court of appeals mav be reviewed bv the Supreme Court bv
the following methods:
(1) Bv writ certiorari upon the petition ofanv party to anv civil or criminal case.
before or after rendition of judgment or decree:
(2) By certification at anv time bv a court ofanv question of law in anv civil or
criminal case as to which instructions are desired, and upon such
certification the Supreme Court mav give binding instruction or require the
entire record to be sent up for decision of the entire matter in controversy.
Please see or read the history of 28 U.S.C. 1254 sec. (1). and (2). (June
25. 1948. ch. 646. 62 Stat. 928: Publ. L. 100-352. sec. 2 fa), and (2).
June 27. 1988. 102 Stat. 662.)
The opinion of the United States district court appears at Appendix -B to
the petition and is :
(v) is unpublished.

Jurisdiction

tlgr
(V) For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was:
Still not vet final, pursuant of 28 U.S.C. 1254 (1). (2). which states: “

Cases in the courts of appeals may be reviewed bv the Supreme court
bv the following Methods:
(1) Bv writ of certiorari granted upon the petition of any party to any
civil or criminal case, before or after rendition of judgment or
decree:
(2) Bv certification at anv time bv a court of appeals of any questions of
law in anv civil or criminal case as to which instructions are desired.
and upon such certification the Supreme Court mav give binding
instructions or require the entire record to be sent up for decision of
the entire matter in controversy. Please see, or read the history of
28 U.S.C. 1254 (1). (2).(June 25. 1948. ch. 646. 62 Stat. 928:
Publ. L. 100-352. Sec. 2 fa), (b). June 27. 1988.102 Stat 662.)

The jurisdiction of this court is invoked under 28 U.S.C. sec. 1254 (1). and
)

Constitutional and Statutory provision involved

1. 14th amendment
2. The Treaty of Amity of 1819
3. The act of congress, 56 session 1, ch. 191,1900, section 7

%v

Statement of case

1. On 1/23/2016, the petitioner Torres, Marco M. filed a petition for a writ of
Certiorari and motion for leave to proceed in forma pauperis was filed, and
the petition was docket and given a docket number, which is 15-7897,
2. On March 9, 2016 the supplemental brief of petitioner Torres, Marco M.
was filed.
3. On March 17, 2016, the Supreme Court distributed for the conference of
April 1, 2016.
4. On April 4, 2016 the petition was denied.
5. On April 12, 2016, petitioner Torres, Marco M. filed a reh'g or en banc.
6.- On May 3, 2016, the Supreme Court distributed for conference on May 19
2016.
7. On may 23, 2016 the reh’g was denied.please appendix a, b, c, d, e, f,
8. On 4/4/2020, the petitioner Torres, Marco M. filed a 1983 civil federal
complaint, on issues of 1819 treaty of amity made by the two country, that
the President Donald Trump in 2016 when was inaugurated and sworn in,
with his promise to protect the constitution and honor all treaty made by
the constitution, has allowed the 9 Supreme Judexes to act in their bad
behavior to denied petitioner Torres, Marco M. great writ of Cert, and to
discriminate against, knowingly there is a treatise amongs porto rico and
the united states. Please see the treaty of amity as appendix ( ).
9. On the 6th day of March, 2020, the federal District Court of the Middle
District for Tampa, Florida has filed an order that came for consideration
upon the petitioner Torres, Marco M. complaint for violation of civil rights
(Doc. 1.). And stated that the complaint was frivolous actions, pursuant of
orders from September 10, 2008, (Doc. 7, case no: 08:cv-1605-T-33MSS
and February 27, 2017 (Doc. 3, case no: 17-mc-15-T-23TGW,
suppossely

The senior magistrate judge is required to screen complaints filed by
Torres, Marco M. for merit before they can be docketed by the clerk.
On March 23, 2020, petitioner Torres, Marco M. filed a writ of objection to
the order that was denied on the 6th day of march.
On April 9th, 2020, the Middle District filed an order denying the
consideration upon the submission titled; “a writ of objection to the order
that was denied on the 6th day of March by judge Thomas G. Wilson.”

The reason for granting the petition
An action brought under 42 U.S.C. section 1983 is based on the assumption that those
public officials who violate the constitutional rights of the citizens or under an act of
treaty that allows a person to be or not to be a citizen under the treaty act, but are
serving must answer in damage for their actions. Officials defending such suits will
generally attempt to invoke absolute immunity or, if a defense is unavailable, they will
try to justify their actions on the theory that they were taken in good faith. Absolute
immunity for executive department officials, however, has no place in section 1983
actions. Furthermore, to establish broad rules of immunity through judicial interpretation
is to undercut the purpose of section 1983 and federal causes of action brought
dierectly under the treaty of Amity. Generally, the same rules governing liability for
analogue torts under the common law should apply in section 1983 actions; a finding of
malice or subjective bad faith is always a basis for liability and these may be inferred
from the circumstances of each case. In addition, neglent courses of action that have
the potential for widespread injury should also result in liability. It is clear that public
officials are bound to follow the law and treaty and they are paid to enforce. The rapid
constitutional developments of the past fifteen years have created problems for officials
who must take account of the new protections for citizens. It is not asking too much of
these officials, however, that they become acquainted with the new constitutional cases
and treaties made by both countries to implicate for the conduct of their offices. If they
remain ignorant of what the law means with respect to their treatment of fellow citizens
and not citizens by treaty, a strong dose of tort liability may be the best medicine to
ensure that all officials obey the law.
Conclusion
The petition for a writ of Certiorari should be granted.

S/
PI Toffes. Marco M S J/
7810 N. Woodlynne Ave:
Tampa, Florida 33614
Marcotorres666@Qmail.com
(813) 704-1839

~7

/j y

